No.

IN THE
SUPREME COURT OF THE UNITED STATES

'

TIM SUNDY
— PETITIONER
(Your Name)
VS.

Friendship Pavilion Acq. Co. LLC. e.t, al. — RESPONDENT(S)
PROOF OF SERVICE
I,

do swear or declare that on this date,

Tim Sundy

, 20__ , as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and
PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding or that
party’s counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly addressed to
each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Robert C. Khayat, Jr., The Khayat Law Firm, 75 Fourteenth St., Ste 2750, Atlanta. GA 30309;
Charles Baker. Clerk, Hall County Superior Court. PO Drawer 1275, Gainesville, GA 30503 ,

I declare under penalty of perjury that the foregoing is true and correct.

Executed on

Zh Av

0^

<■

, 20^0

RECEIVED
SEP - 2 202(1
OFFICE OF THE CLERK
SUPREME COURT. U.S.

